Office of
Inspector General



                    FISCAL YEARS 2012 & 2013


                     PERFORMANCE REPORT




                         January 15, 2014




                    FARM  CREDIT  ADMINISTRATION
Farm Credit Administration	                                     Office of Inspector General
                                                                1501 Farm Credit Drive
                                                                McLean, Virginia 22102-5090




January 15, 2014

The Honorable Jill Long Thompson, Board Chair and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Leland A. Strom, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, VA 22102-5090

Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom:

The Government Performance and Results Act of 1993 encourages organizations to manage
for results and hold managers accountable for executing programs to achieve desired
outcomes. The enclosed report documents the outcomes or impact of the products, services,
and leadership of the Office of Inspector General (OIG) during fiscal years 2012 and 2013.

The OIG continues to work to enhance its role as an agent for positive change within the Farm
Credit Administration. The results reflect the commitment that OIG staff has to assisting the
FCA Board and FCA employees in achieving the Agency’s mission of ensuring a safe and
sound Farm Credit System that provides a dependable source of credit to farmers and ranchers.

We look forward to continuing to work with you to ensure FCA remains effective in its efforts to
accomplish its mission. I welcome your comments on ways to improve OIG services that help
you achieve your goals for FCA’s operations.

If you have any questions, please call me at extension 4036 or 4030.

Respectfully,



Elizabeth M. Dean 

Inspector General 


Enclosure
                                          FARM CREDIT ADMINISTRATION 

                                         OFFICE OF INSPECTOR GENERAL


                FISCAL YEARS 2012 & 2013 PERFORMANCE REPORT

                                                 TABLE OF CONTENTS


                                                                                                                                         Page 

Executive Summary ................................................................................................................... 1 


Audits, Inspections, and Evaluations ......................................................................................... 3 


Investigations ............................................................................................................................. 8 


Legislative and Regulatory Review .......................................................................................... 10


Outreach .................................................................................................................................. 11 


Appendix .................................................................................................................................. 13 

                             FARM CREDIT ADMINISTRATION 

                            OFFICE OF INSPECTOR GENERAL


           FISCAL YEARS 2012 & 2013 PERFORMANCE REPORT

                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG) of the Farm Credit Administration met or exceeded most
goals for performance in fiscal years (FY) 2012 and 2013. Goals pertained to:

      audits and inspections,
      technical assistance to Agency officials and management,
      continuous improvement of the OIG staff,
      investigation of administrative and criminal violations,
      reviewing and commenting on legislation and regulations affecting the Agency and the
       Inspector General community, and
      outreach.

OIG Reports, Advisories, and Observations

The OIG products listed below were timely and constructive while accommodating the priorities
of the Agency. Most products addressed risk to the Agency. Many of the products contained
recommendations to improve Agency operations.

During the reporting period the OIG issued three program audits:
          o	 FCA’s Contracting Activities
          o	 FCA’s Telework Program
          o	 FCA’s Student Loan Repayment Program

Two financial statement audits were issued:
          o	 Audit of the FCA’s FY 2011 Financial Statements
          o	 Audit of the FCA’s FY 2012 Financial Statements

Two evaluations were issued:

          o	 The Federal Information Security Management Act (FISMA) Evaluation for 2011
          o	 The FISMA Evaluation for 2012

One inspection was issued:
          o	 FCA’s Information Technology Equipment Acquisitions




                            Farm Credit Administration ♦ Office of Inspector General
                                 Fiscal Years 2012-2013 Performance Report
                                                                                                1
One Management Advisory was issued:
           o	 FCA’s Use of Social Media

The OIG also continued the practice of issuing Inspector General (IG) Observations. An
Observation is designed to alert Agency leadership to new issues, problems, or information to
aid in decision making. The IG issued an Observation on:

           o   The Need for Independent Objective Oversight of the Farm Credit System
               Insurance Corporation by a Statutorily Designated Inspector General.


Survey to Gather Feedback on FCA Examination of System Institutions

Since 1995, the OIG has developed, administered, and collected survey data from the Farm
Credit System (FCS or System) on the quality and effectiveness of the Agency’s examination
function and examiners for use by the Chief Examiner and FCA Chairman and Board as a
feedback mechanism. During FY 2012-2013, eight quarterly and two annual summary survey
reports continued to provide useful feedback, mostly positive.

OIG Contributions to the Federal Inspectors General Community

FCA’s Inspector General continued to lead the Inspectors General community as Vice
Chairperson of the Council of the Inspectors General on Integrity and Efficiency (CIGIE or
Council) until retirement in January 2013. The successor Inspector General, appointed
June 19, 2013, is on CIGIE’s Legislation Committee, and Inspection and Evaluation Committee,
and the Small IG Council.

    The former IG assumed a major role as Vice Chairperson of the CIGIE, a council formed
     as a result of the passage of the IG Reform Act of 2008. He assisted the Chairperson in
     planning and carrying out all agenda items and cross cutting projects undertaken by the
     Council, consisting of all 73 Inspectors General and six other Federal officials. A charter
     and strategic plan are operational and a fully functioning Council, including various
     operating committees, permanent staff, and a training institute have enhanced the
     cohesiveness of the statutory IGs. There is national and international interest by
     governmental groups to learn and use CIGIE as a model. As a result, presentations on
     CIGIE were made by the IG at the request of foreign governmental organizations.

A measure of the OIG’s success is reflected in OIG’s contribution to the Agency’s continuous
utilization of sound business practices and basic integrity. We are confident the Agency will
continue to show firm commitment to the independence of the OIG and to follow-up on OIG
report findings, conclusions, and recommendations to improve operations and programs.

The OIG welcomes comments and suggestions related to performance measurement.




                           Farm Credit Administration ♦ Office of Inspector General
                                Fiscal Years 2012-2013 Performance Report
                                                                                                2
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.


Performance Goal 1 – Deliver quality audit, inspection, and evaluation products and services
                     that are useful to the Board.


           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Audits, inspections, and evaluations are relevant.              FCA programs and operations are more effective.
Audit coverage includes all mandated audits and at              Waste in Agency programs and operations is reduced.
least 75 percent of those suggested by the Board and            Better business practices are initiated.
management. Risk is addressed. One hundred
percent of the OIG audits are performed in high                   The OIG found and continued to avail itself of
risk/high dollar programs and activities and/or are tied           opportunities to save contracting funds by utilizing
to the Agency strategic planning goals.                            the Department of the Treasury’s Bureau of the
                                                                   Public Debt contract for financial statement auditing
OIG performed or supervised the following audits,                  services.
inspections, and evaluations of mission critical
operational areas:                                                       Unqualified (unmodified) opinions for Agency
                                                                          financial statements have continued.
     Program Audits:
       Contracting Activities
                                                                  Security of information has been strengthened
       Telework Program
                                                                   through FISMA reviews. Recommendations and
       Student Loan Repayment Program
                                                                   suggestions made by the IT auditor are readily
                                                                   accepted and addressed.
     Inspection:
       FCA’s Information Technology Acquisitions
                                                                  FCA developed an information technology action
                                                                   plan to guide the Agency in achieving compliance
     For FY 2011 and FY 2012, OIG contracted with
                                                                   with the United States Government Configuration
      a Certified Public Accountant (CPA) firm to audit
                                                                   Baseline.
      FCA’s financial statements.
                                                                  FCA’s management most often agrees with OIG
     During 2011 and 2012, the OIG’s Senior
                                                                   findings and attempts to resolve problems
      Information Technology (IT) auditor performed
                                                                   promptly, often before the final report is issued.
      the FISMA evaluation.
                                                                   That is the case with issues identified in the
                                                                   contracting and acquisition audit. Single source,
Products are timely, i.e., average time to complete
                                                                   inherently governmental contracts were curtailed,
audits and issue draft reports will not exceed 6
                                                                   procurement staff was provided additional training,
months.
                                                                   and procurement guidance and oversight was
                                                                   enhanced. In addition, the Designated Agency
     Draft reports for audits, inspections, and                   Ethics Official and contracting office worked to
      evaluations were issued in less than 6 months                establish clear guidance to prohibit award of
      (average).                                                   contracts to former employees or from a regulated
                                                                   entity.

                                                                  As a result of an OIG audit, FCA took a
                                                                     comprehensive look at the Telework program.
                                                                     Practices to track and update telework agreements
                                                                     were arranged. In addition, policies for certain
                                                                     employees were changed to increase attention to
                                                                     Agency mission.



                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2012-2013 Performance Report
                                                                                                                           3
                       AUDITS, INSPECTIONS, AND EVALUATIONS
     Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                    efficiency, and effectiveness.


 Performance Goal 1 (continued) – Deliver quality audit, inspection, and evaluation products and
                                  services that are useful to the Board.


          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT

Audits are constructive. At least 75 percent of audit             As a consequence of an OIG audit uncovering
products contain recommendations or agreed-upon                    some inefficiency in the Student Loan Repayment
actions to improve Agency operations. The Agency                   Program, there was a decision by management to
accepts at least 80 percent of the OIG audit action                suspend the program with the idea of developing
items.                                                             more efficient and effective incentive programs.

     Not all audits contained action items if the                OIG determined FCA’s information and technology
      findings did not warrant corrective action. Those                acquisitions were efficient and effective and in
      audit and inspection products containing                         compliance with applicable guidelines.
      recommendations to improve Agency operations
      have been accepted as agreed-upon actions                 FCA is more effective in carrying out its mission.
      and are generally addressed within a year. In
      some cases, Agency management took                                Management’s attention to resolving open OIG
      immediate action for improvement as a result of                    recommendations or agreed-upon actions
      an OIG suggestion so no formal                                     continues to be diligent and, in the majority of
      recommendation was necessary.                                      instances, resolution occurs rapidly and almost
                                                                         always within a 6-month timeframe.
     At the close of FY 2013, one agreed-upon action
      was open. During the 2-year reporting period,
      the three audits, the inspection, and two FISMA
      evaluations resulted in fourteen agreed-upon
      actions. All but one action items have been
      addressed and closed.

See Appendix (page 13) for details of audits and
inspections.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2012-2013 Performance Report
                                                                                                                            4
                      AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 2 – Provide technical advice and assistance to Agency officials in developing
                     sound management information and financial reporting systems and in
                     streamlining programs and operations.

          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT
The IG advises the FCA Board concerning policy                The OIG input and advice contributes to Agency
direction or administrative priorities.                       decisions and actions that are more complete and
                                                              valid at their inception.
     The OIG, through its audit, inspection, and
      evaluation reports, provides the FCA Board                    The OIG contributed by inspiring thought on
      with recommendations to strengthen Agency                      whether student loan repayment was actually
      operations.                                                    necessary or achieving the intended benefit.
     The IG identifies management’s top
                                                                    Management spent considerable time and
      challenges in the Agency’s Performance and
                                                                     thought in revising telework policy, in part,
      Accountability Report and the OIG’s
                                                                     based on the OIG audit of the program and the
      semiannual reports.
                                                                     issues that the audit surfaced.
     IG Observations and management advisories
      address Agency policy or administrative                       Examination is an inherently governmental
      functions.                                                     function. As a result of the OIG audit on
                                                                     contracting activities, the practice of re-hiring
     The OIG conducts an ongoing survey of FCS
                                                                     former FCA examiners as contractors was
      institutions as to the effectiveness of the                    curtailed.
      examination function and examiners. The
      survey of FCS institutions was revamped in
                                                                    OIG did a Management Advisory on Social
      2006 and is electronic. The OIG preserves                      Media. The Agency does not have a social
      the anonymity of respondents and the integrity                 media presence but is gathering information
      of the survey.
                                                                     from other agencies who are actively engaging
The OIG performs analyses and provides technical                     social media and intends to develop a plan and
advice to management concerning accounting,                          strategy.
management systems and controls, and performance
measures.                                                           The Office of the Board sought technical
                                                                     perspective on certain aspects of Agency
     The OIG’s contract auditing firm assessed the                  operations: organizational structure and the
      Agency’s accounting and financial reporting                    need for an IG for the Farm Credit System
      annually, including controls and compliance                    Insurance Corporation.
      with laws and regulations. Any
      recommendations were conveyed to the FCA                      The Office of Management Services continues
      Board and to the Chief Financial Officer.                      to strengthen its information security program
     The OIG’s Senior IT Auditor assessed the                       based on agreed-upon actions identified in
      Agency’s compliance with FISMA. Any                            OIG’s FISMA evaluation. For example, the
      recommendations were conveyed to the FCA                       Agency implemented an action plan to guide
      Board, the Chief Information Officer, and the                  the Agency in achieving compliance with the
      Director of the Office of Management Services                  United States Government Configuration
      (OMS). In addition, the Senior IT Auditor                      Baseline.
      made suggestions that were readily accepted
      throughout the evaluation process.


                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2012-2013 Performance Report
                                                                                                                         5
                   AUDITS, INSPECTIONS, AND EVALUATIONS
    Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                   efficiency, and effectiveness.

Performance Goal 2 (continued) – Provide technical advice and assistance to Agency officials in
                                 developing sound management information and financial reporting
                                 systems and in streamlining programs and operations.

         PERFORMANCE MEASURES                                                OUTCOME / IMPACT

                                                                The survey conducted by OIG of FCS
                                                                 institutions which have been examined, has
                                                                 been a useful instrument for the Chief
                                                                 Examiner and FCA Board to track quality of
                                                                 examination and examiners.
                                                          Increase in management requests for advice, audit
                                                          work, or technical assistance.
                                                                The OIG is always receptive to management’s
                                                                 requests for audit work or for the OIG’s
                                                                 perspective on FCA operations, whether
                                                                 technical or non-technical in nature.




                             Farm Credit Administration ♦ Office of Inspector General
                                  Fiscal Years 2012-2013 Performance Report
                                                                                                               6
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 3 – Continuous improvement of the OIG staff, products, and internal
                     administration. Quality is highly valued.

          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT

OIG training ensures the technical proficiency of staff.        Peer review reports provide an unqualified opinion
                                                                that the OIG audit function meets or exceeds quality
      The OIG team has taken technical courses to
                                                                audit standards prescribed by the U.S. Government
       gain proficiencies. Courses attended include:
                                                                Accountability Office (GAO) and CIGIE.
       - OIG Leadership courses
       - Yellow Book Auditing (Government                               The U.S. Architect of the Capital OIG
         Accountability Office)                                          conducted a peer review of the FCA OIG audit
       - Professionalism, Substance Abuse & Legal                        function in July 2013 and found full compliance
         Ethics                                                          with GAO and CIGIE auditing standards.
       - Federal Audit Executive Council Conference
                                                                        OIG’s audit team completed a peer review of
       - ISACA seminars and webinars
                                                                         the U.S. International Trade Commission in
       - Federal Audit Executive Committee meetings
                                                                         January 2013.
         and conferences
       - Ethics for Virginia CPAs                                       The IG’s opportunity to facilitate positive
       - Plain Writing Act                                               change within the Agency is enhanced by the
       - Harassment Training                                             quality and credibility of OIG products and
       - No Fear Act                                                     advice.
       - National Intergovernmental Audit Forum
                                                                        Management seeks and listens to the OIG’s
       - CIGIE Annual Meeting
                                                                         views on issues.
       - FOIA/Privacy Act Training Workshop
       - Hotline Operator Training Program                              OIG staff members receive recognition through
                                                                         awards from the CIGIE community.
      In addition, CIGIE training sessions and legal
       forums are attended. The OIG team also stays                     The OIG provides sound opinions for the Office
       current in FCA operations and strategic                           of the Board on aspects of Agency operations.
       management initiatives.                                          The quarterly reports on the OIG’s survey of
The OIG implements administrative improvements                           FCS institutions relative to the Agency’s
identified through reviews of Agency programs and                        examination function provide Agency
through staff involvement with the professional                          management with quantitative and narrative
community.                                                               feedback that assists in facilitating positive
                                                                         change.
      The OIG website is continually improved and
       kept current. As required by the Consolidated            Audit, inspection, and other reports are almost always
       Appropriation Act, Pub.L.110-161, the OIG                made public upon issuance and the OIG uses an
                                                                email mechanism to alert those on the mailing list of
       maintains an email list for those who wish to
       receive notification when OIG reports are                new publications.
       posted to the Agency’s website. There is a
       direct link to the OIG on the Agency
       homepage.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2012-2013 Performance Report
                                                                                                                           7
                                                INVESTIGATIONS
     Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                waste, abuse, and mismanagement in Agency programs and operations.


Performance Goal 1 – Effectively investigate and report administrative and criminal violations relating
                     to FCA programs and personnel to Agency officials, the Attorney General
                     (when appropriate), and Congress.


          PERFORMANCE MEASURES                                                       OUTCOME / IMPACT

Investigative reports are timely and presented in an              Administrative actions, convictions, or pleas are
objective and factual manner. Memoranda are                       sought for employees and/or contractors found guilty
issued to management describing internal control                  of wrongdoing.
weaknesses or program deficiencies found during the               Management actions taken against employees serve
investigative process with suggestions to prevent                 as deterrent to future wrongdoing.
and/or detect future wrongdoing.
                                                                  FCA internal policies, procedures, and controls are
      There were no investigations with                          strengthened to prevent and/or detect future
       substantiated findings during FYs 2012 and                 wrongdoing.
       2013. The OIG is notified of missing equipment
       if it contains personally identifiable information.              Policies and procedures involving loss of
       OIG coordinates with law enforcement when                         equipment have been strengthened.
       warranted.
                                                                        FCA managers are alerted to employee
                                                                         misconduct for expeditious action.
                                                                  Public confidence in the integrity of FCA programs
                                                                  and internal operations is heightened.




                                     Farm Credit Administration ♦ Office of Inspector General
                                          Fiscal Years 2012-2013 Performance Report
                                                                                                                         8
                                             INVESTIGATIONS
      Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                 waste, abuse, and mismanagement in Agency programs and operations.


Performance Goal 2 – Cause FCA employees and managers to recognize their responsibility and
                     report observed or suspected wrongdoing to the OIG.


            PERFORMANCE MEASURES                                                  OUTCOME / IMPACT

Allegations of wrongdoing are received in a timely             Investigations are more successful because they are
manner and are supported by specific information.              initiated in a timely manner and have better
                                                               information.
       The OIG has a secure email hotline,
        fca-ig-hotline@rcn.com and phone numbers                     Several hotline complaints were referred to the
        703-883-4316 and 800-437-7322.                                Office of Congressional and Public Affairs, and
                                                                      the Office of Examination. OIG assisted FCA
       Follow-up by OIG and appropriate forwarding                   examiners in referring suspected fraud to the
        to other Agency offices.                                      Department of Agriculture OIG investigators.
                                                                      The Office of Personnel Management referred
                                                                      an allegation to FCA OIG for review and follow-
                                                                      up.
                                                               FCA employees are more willing to report real or
                                                               suspected wrongdoing because they trust the
                                                               competence, fairness, and confidentiality of OIG’s
                                                               investigations.
                                                                     The IG and Deputy IG made presentations to
                                                                      new employees regarding their responsibility to
                                                                      report observed or suspected fraud, waste,
                                                                      abuse of authority, mismanagement, or other
                                                                      wrongdoing.




                                  Farm Credit Administration ♦ Office of Inspector General
                                       Fiscal Years 2012-2013 Performance Report
                                                                                                                        9
                         LEGISLATIVE AND REGULATORY REVIEW
   Objective – Review and make recommendations regarding existing and proposed legislation and
   regulations relating to Agency programs and operations and the Inspectors General Community.

Performance Goal 1 – Maintain an effective program for reviewing and commenting on proposed and
                     existing legislation and regulations affecting the Agency and the Inspectors
                     General Community.

           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Processes are established and documented for                    The OIG input is part of the decision-making process
identifying and circulating (as appropriate) relevant           in approving or amending legislation, regulations,
documents.                                                      circulars, and other policy positions.
      Legislation and proposed rules are tracked on a                The OIG established a collaborative process
       regular basis.                                                  with FCA’s Office of Regulatory Policy to
      The CIGIE Legislation Committee is active in                    designate points in time when information on
       forwarding interest items.                                      regulations and briefings will be sent to the OIG
                                                                       for review.
Constructive comments on relevant documents are
submitted by the deadlines requested by the office,             Constructive criticism and creative alternatives offered
Agency, or staff circulating comments.                          in OIG comments improve the quality and usefulness
                                                                of documents issued by the Agency.
                                                                FCA Board and management are informed about the
                                                                status of new or pending legislation or regulations
                                                                initiated externally.
                                                                      A management advisory summarized the
                                                                       relevant Congressional and Administration’s
                                                                       initiatives to decrease spending on conferences.
                                                                      Legislative update and reform is continually
                                                                       considered as a future remedy to outdated
                                                                       provisions in the Farm Credit Act.
                                                                Regulations reviewed by OIG are noted in the OIG’s
                                                                semiannual reports to Congress.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2012-2013 Performance Report
                                                                                                                           10
                                                 OUTREACH
  Objective – Work with our Agency head and the Congress to improve program management; and
 work with the Inspectors General Community and other related organizations to address government-
                                           wide issues.


Performance Goal 1 – Promote OIG’s role within the FCA and the community at large.



          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT

Develop and maintain educational brochures or                 Agency employees’ acceptance of and cooperation
pamphlets describing OIG roles and activities.                with OIG activities is improved through better
                                                              understanding. OIG programs and products are
    Examples include: Strategic Planning brochure,           improved through feedback from Agency employees.
     The IG at FCA pamphlet, FCA Orientation
     PowerPoint presentation, and input into the                      OIG updates Directives periodically.
     CIGIE Annual Report to the President.                            Developed PowerPoint presentation on the OIG
Facilitate feedback from Agency employees and refine                   at FCA for web use and for new employee
products and practices based on the feedback to OIG                    training.
products and educational materials.                                   Reaction to IG Observations and Management
    The OIG would be receptive to any and all                         Advisories has been positive.
     feedback received from Agency management                 Audit follow-up is improved.
     and staff regarding OIG practices and products.
                                                                      Agreed-upon actions are implemented more
                                                                       expeditiously. Rarely does an action take more
                                                                       than six months to clear.

                                                              Responded to Congressional Request (Rep. Issa)
                                                              inquiries about “unimplemented recommendations,”
                                                              and to Senators Grassley’s and Coburn’s biannual
                                                              requests for information. OIG also responded to
                                                              committee requests for review of the Agency’s climate
                                                              control/sustainability status.




                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2012-2013 Performance Report
                                                                                                                        11
                                                 OUTREACH
  Objective – Work with our Agency head and the Congress to improve program management; and
 work with the Inspectors General Community and other related organizations to address government-
                                           wide issues.

Performance Goal 2 – Provide leadership to organizations directly contributing to the Inspectors
                     General community, the Agency, and the Federal Government.

          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT
Time and resources are provided to OIG staff                  Projects and activities of adjunct organizations such
members as an incentive to contribute to the Agency           as the AGA, the Institute of Internal Auditors, CIGIE
and outside organizations by serving on committees            Training Institute and CCIG meetings and forums are
and holding offices.                                          improved by OIG staff contributions and participation.
   OIG staff actively participated in CIGIE: IG was           IG as Vice Chair of the CIGIE, along with the Chair
    the Vice Chairperson of CIGIE. The IG was a                 led monthly meetings of the Council and Executive
    member of the Executive Council of CIGIE. The               Council.
    IG and staff participated on the Inspection and
    Evaluation Council of CIGIE, Association of                OIG participates in the CIGIE working group on
    Government Accountants (AGA), Deputy                        inspections and evaluations. The group
    Inspectors General Quarterly meetings, Council              collaborates and shares common areas for
    of Counsels (CCIG), CIGIE Federal Audit                     inspection and evaluation work.
    Executive Committee (FAEC), CIGIE FAEC IT
    Committee, Instructor at the Federal Law                   The IG frequently made presentations on the IG
    Enforcement Training Center, Federal Women’s                Reform Act and CIGIE to organizations and
    Program Committee, Blacks In Government,                    international groups.
    Administrative Burden Reduction Workgroup, and
    the Combined Federal Campaign.                             OIG auditors performed a peer review of the audit
                                                                program of the U.S. International Trade Commission
OIG networking opportunities have resulted in an
                                                                and made recommendations to improve their audit
expanded consideration of FCA ideas and practices
                                                                operations.
by community contacts and experts. The OIG has
shared telecommuting policies, hotline procedures,
                                                               An OIG auditor actively participates in the FAEC IT
performance measures and performance contracts
                                                                Committee. This subcommittee worked with the
and evaluation methods. Likewise, FCA benefits from
                                                                Office of Management and Budget to revise the
the opportunity to benchmark practices in other
                                                                performance metrics for FISMA reporting by OIGs.
agencies.
                                                               An OIG auditor participated on an administrative
                                                                workgroup charged with setting up the infrastructure
                                                                for CIGIE operations which included developing
                                                                business, financial and staffing plans; and acquiring
                                                                business services, office space, IT equipment and
                                                                services, and telecommunications.

                                                               An OIG auditor developed a draft security program
                                                                for the CIGIE.

                                                              FCA programs and operations are more effective and
                                                              efficient.

                                                               The Project on Government Oversight has
                                                                previously recognized FCA OIG for its effective
                                                                performance reporting.


                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2012-2013 Performance Report
                                                                                                                       12
                                                                     APPENDIX

                                                                        AUDITS
                              AUDITS ARE                                            PRODUCTS ARE                 AUDITS ARE           AGENCY ACCEPTS
     AUDIT NAME                                    RISK ADDRESSED
                               RELEVANT                                                TIMELY                   CONSTRUCTIVE              ≥ 80 %

FCA Contracting
                              OIG Initiated          Strategic Plan                       9 Months            7 Agreed-Upon Actions    100% Accepted
Activities

FCA’s Telework
                              OIG Initiated          Strategic Plan                       4 Months            3 Agreed-Upon Actions
Program
                                                                                                                                      100% Accepted
FY 2011 and 2012
Financial Statements      Legislatively Mandated
                                                     Strategic Plan                       6 Months               No Action Items            N/A
(Issued in FYs 2012 and        Annual Audit
2013)

                                                                   INSPECTIONS

FCA’s Information
                           Requested by FCA
Technology Equipment                                 Strategic Plan                       4 Months            4 Agreed-Upon Actions    100% Accepted
                             Board Chair
Acquisitions

                                                                  EVALUATIONS

Federal Information
Security Management
Act Evaluation for FY     Legislatively Mandated     Strategic Plan                       2 Months               No Action Items            N/A
2011 and 2012 (Issued
in FYs 2012 and 2013)




                                                   Farm Credit Administration ♦ Office of Inspector General
                                                        Fiscal Years 2012-2013 Performance Report
                                                                                                                                                       13
